  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




 TEXAS DID NOT ENSURE THAT THE
PRIOR-AUTHORIZATION PROCESS WAS
 USED TO DETERMINE THE MEDICAL
NECESSITY OF ORTHODONTIC SERVICES


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General
                                                     for Audit Services

                                                         August 2014
                                                        A-06-12-00039
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

Texas did not ensure that the prior-authorization process was used to determine the medical
necessity of orthodontic services under State Medicaid guidelines.

WHY WE DID THIS REVIEW

In Texas, the Health and Human Services Commission (State agency) administers the Texas
Health Steps program, which provides for the early detection and treatment of dental health
problems for Medicaid beneficiaries from birth through age 20. Medicaid pays for orthodontic
services, but only those that are medically necessary and that have received prior authorization.
The prior-authorization process is intended to determine medical necessity. Because payments
for Medicaid orthodontic services in Texas have risen sharply in recent years, we have identified
this area as vulnerable to fraud, waste, and abuse.

The objective of this review was to determine whether the State agency ensured that the prior-
authorization process was used to determine the medical necessity of orthodontic services under
State Medicaid guidelines.

BACKGROUND

The State agency contracted with the Texas Medicaid & Healthcare Partnership (TMHP) to
determine the medical necessity of orthodontic services and process provider requests for prior
authorizations. The prior-authorization process is intended to determine medical necessity. The
orthodontic prior-authorization requests should be reviewed for medical necessity in accordance
with Medicaid criteria by knowledgeable and professional medical personnel, which includes the
TMHP dental director.

WHAT WE FOUND

The State agency did not ensure that the prior-authorization process was used to determine the
medical necessity of orthodontic services under State Medicaid guidelines. In addition, the
TMHP dental director did not follow State Medicaid policies and procedures when determining
the medical necessity of orthodontic services and reviewing prior-authorization requests.

These deficiencies occurred because the State agency did not ensure (1) that TMHP properly
reviewed each prior-authorization request for medical necessity and (2) that the TMHP dental
director followed Medicaid policies and procedures on determining the medical necessity of
orthodontic services. As a result, TMHP may have approved requests for orthodontic services
that were not medically necessary. Although TMHP failed to properly use the prior-
authorization process to determine the medical necessity of orthodontic services, the State
agency is ultimately responsible for contractor compliance.




Prior Authorization of Medicaid Orthodontic Services in Texas (A-06-12-00039)                       i
WHAT WE RECOMMEND

We recommend that the State agency provide proper oversight of the orthodontic prior-
authorization process to ensure that:

    •   it is used to determine medical necessity and

    •   personnel making the prior-authorization decisions follow the appropriate State Medicaid
        policies and procedures.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency partially agreed with our findings. The
State agency agreed that the orthodontic prior-authorization process was not used to determine
the medical necessity of orthodontic services and that TMHP’s dental director was not using
Medicaid guidelines to determine medical necessity. However, the State agency disagreed that
TMHP’s deficiencies were due to a lack of State agency oversight. The State agency provided
information on actions that it had taken to address our recommendations, including transitioning
Medicaid recipients to managed care, terminating TMHP’s contract, and hiring a dental director
to monitor the dental program.

We maintain that TMHP’s deficiencies were due to a lack of State agency oversight because the
State agency is responsible for contractor compliance.




Prior Authorization of Medicaid Orthodontic Services in Texas (A-06-12-00039)                   ii
                                                     TABLE OF CONTENTS


INTRODUCTION ........................................................................................................................ 1

       Why We Did This Review .................................................................................................... 1

       Objective ............................................................................................................................... 1

       Background ........................................................................................................................... 1
          Medicaid Program ........................................................................................................... 1
          Texas Medicaid Orthodontics ......................................................................................... 2
          Texas Medicaid & Healthcare Partnership ..................................................................... 2
          Texas Medicaid & Healthcare Partnership’s Prior-Authorization Process..................... 2

       How We Conducted This Review......................................................................................... 2

FINDINGS .................................................................................................................................... 3

       The State Agency Did Not Ensure That the Prior-Authorization Process
        Was Used To Determine Medical Necessity ..................................................................... 3

       The State Agency Did Not Ensure That the Texas Medicaid & Healthcare
        Partnership Dental Director Followed State Medicaid Policies and Procedures
        When Determining Medical Necessity .............................................................................. 4

       Effect of These Deficiencies ................................................................................................. 5

RECOMMENDATIONS .............................................................................................................. 5

STATE AGENCY COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE ................................................................ 5

       State Agency Comments ....................................................................................................... 5

       Office of Inspector General Response .................................................................................. 6

OTHER MATTERS...................................................................................................................... 6

       The State Agency Did Not Ensure That Texas Medicaid & Healthcare
        Partnership’s Analysts Were Medically Knowledgeable .................................................. 6

       State Agency Comments ....................................................................................................... 6

       Office of Inspector General Response .................................................................................. 6




Prior Authorization of Medicaid Orthodontic Services in Texas (A-06-12-00039)                                                                        iii
APPENDIXES

     A: AUDIT SCOPE AND METHODOLOGY ............................................................. 7

     B: STATE AGENCY COMMENTS .......................................................................... 8




Prior Authorization of Medicaid Orthodontic Services in Texas (A-06-12-00039)                                iv
                                            INTRODUCTION

WHY WE DID THIS REVIEW

In Texas, the Health and Human Services Commission (State agency) administers the Texas
Health Steps program, which provides for the early detection and treatment of dental health
problems for Medicaid beneficiaries from birth through age 20. Medicaid pays for orthodontic
services, but only those that are medically necessary and that have received prior authorization.
The prior-authorization process is intended to determine medical necessity. Because payments
for Medicaid orthodontic services in Texas have risen sharply in recent years, we have identified
this area as vulnerable to fraud, waste, and abuse. As shown in the graph below, Texas Medicaid
payments for orthodontic services rose from $6.5 million in 2003 to $220.5 million in 2010, an
increase of more than 3,000 percent. By comparison, Texas Medicaid enrollment increased by
only 33 percent during the same period.

                           Medicaid Payments for Orthodontic Services,
                                2003–2010 (in millions of dollars)
                    250

                    200

                    150

                    100

                     50

                      0
                           2003    2004    2005    2006    2007    2008    2009   2010


OBJECTIVE

Our objective was to determine whether the State agency ensured that the prior-authorization
process was used to determine the medical necessity of orthodontic services under State
Medicaid guidelines.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements. In Texas,
the State agency administers the program.


Prior Authorization of Medicaid Orthodontic Services in Texas (A-06-12-00039)                   1
Texas Medicaid Orthodontics

Medicaid orthodontic services must be authorized prior to treatment to determine medical
necessity and are limited to severe handicapping malocclusion and related conditions as
described and measured by the procedures and standards in the Texas Medicaid Provider
Procedures Manual (Medicaid Manual). 1

Texas Medicaid & Healthcare Partnership

As of January 1, 2004, ACS State Healthcare, LLC (ACS), under contract with the State agency,
assumed administration of claim processing for Texas’ Medicaid program and other State health
care programs. ACS contracts with a team of subcontractors called the Texas Medicaid
& Healthcare Partnership (TMHP) to carry out its responsibilities. TMHP is responsible for
processing Medicaid provider requests for prior authorization to perform orthodontic services.
Processing these requests includes determining whether a service is medically necessary.

Texas Medicaid & Healthcare Partnership’s Prior-Authorization Process

Providers send requests to perform orthodontic services to TMHP for prior authorization. The
request contains an orthodontic treatment plan, x-rays, facial photographs, and a Handicapping
Labio-lingual Deviation Index (HLD). 2 TMHP’s analysts perform a clerical review of the
requests to check for completeness, verify HLD scores, and review patient histories to avoid
approval of duplicate services. If a prior-authorization request contains all documentation and
the HLD score sheet totals at least 26 points, the analyst approves the request without review by
TMHP’s dental director or a determination of medical necessity. If an analyst determines that a
request has an issue, such as the beneficiary is under age 12 3 or the stated HLD score is less than
26 points, the analyst sends the request to TMHP’s dental director for a final determination.
Although the State agency’s contract with TMHP requires the analysts to have some medical
knowledge, they do not make medical determinations regarding a beneficiary’s need for
orthodontic services.

HOW WE CONDUCTED THIS REVIEW

We interviewed the State dental director, TMHP’s dental director and prior-authorization
director, and other officials and reviewed State laws and regulations, contracts, and State agency
Office of Inspector General prior-authorization audit reports to determine whether the State
agency ensured that the orthodontic prior-authorization process was used to determine medical

1
 Texas Administrative Code Title 25, part 1, § 33.71; Medicaid Manual, Children’s Service Handbook, Volume 2,
§ 4.2.24 (2011). The Medicaid Manual allows reimbursement for procedure code D8660 (preorthodontic treatment
visit) without prior authorization. Medicaid Manual, Children’s Service Handbook, Volume 2, § 4.2.24.1 (2011).
2
 Texas Medicaid providers use the HLD to determine whether a beneficiary needs comprehensive orthodontics.
The HLD lists nine conditions that the provider should consider when making a diagnosis. For each condition, a
numerical score is given, and all scores are totaled at the bottom of the page.
3
 The Medicaid Manual states that orthodontic services are limited to children 12 years of age or older, with some
exceptions. Medicaid Manual, Children’s Service Handbook, Volume 2, § 4.2.24 (2011).


Prior Authorization of Medicaid Orthodontic Services in Texas (A-06-12-00039)                                       2
necessity under Medicaid guidelines. We limited our review to TMHP’s process for reviewing
Medicaid provider requests for prior authorizations to perform orthodontic services. An
additional report, which will include results from a medical review of a statistically valid sample
of prior-authorization requests, is forthcoming.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                                      FINDINGS

The State agency did not ensure that the prior-authorization process was used to determine the
medical necessity of orthodontic services under State Medicaid guidelines. In addition, the
TMHP dental director did not follow State Medicaid policies and procedures when determining
the medical necessity of orthodontic services and reviewing prior-authorization requests.

These deficiencies occurred because the State agency did not ensure (1) that TMHP properly
reviewed each prior-authorization request for medical necessity and (2) that the TMHP dental
director followed State Medicaid policies and procedures on determining the medical necessity
of orthodontic services. As a result, TMHP may have approved requests for orthodontic services
that were not medically necessary. Although TMHP failed to properly use the prior-
authorization process to determine the medical necessity of orthodontic services, the State
agency is ultimately responsible for contractor compliance.

THE STATE AGENCY DID NOT ENSURE THAT THE PRIOR-AUTHORIZATION
PROCESS WAS USED TO DETERMINE MEDICAL NECESSITY

According to the State agency’s contract with TMHP, prior authorization is a process used to
determine the medical necessity of selected medical services. The contract requires TMHP to
review the facts associated with treatments proposed by providers and make determinations
regarding the medical necessity and appropriateness of care.

The State agency did not ensure that the prior-authorization process was used to determine
medical necessity. The dental director was generally the only person at TMHP qualified to make
a determination of medical necessity. However, based on interviews with TMHP staff, prior-
authorization analysts processed all requests for prior authorization of orthodontic services
without review by the dental director or another licensed dentist when the HLD score was 26 or
higher and all of the relevant documents were present in the file. 4 TMHP analysts would



4
    This accounted for approximately 80 to 90 percent of all prior-authorization requests.



Prior Authorization of Medicaid Orthodontic Services in Texas (A-06-12-00039)                     3
forward requests to the dental director only if the HLD score was lower than 26, the patient was
under age 12, or the patient had special circumstances. 5

The TMHP dental director stated that the prior-authorization process was “loose” and depended
on providers to determine the medical necessity of treatment. TMHP’s prior-authorization
director, who oversees the prior-authorization process and prior-authorization analysts, stated
that, on the basis of TMHP’s interpretation of its contract and on the fact that the Medicaid
Manual did not require dental molds to be submitted with the provider request for prior
authorization, not every request for prior authorization had to be reviewed by a licensed dentist.
She also stated that the policy change in 2007 that no longer required providers to submit dental
molds was the reason the program was “out of control.” Further, she pointed out that the State
agency had known since 2008 6 that TMHP does not review x-rays for medical necessity. Thus,
by automatically approving requests for prior authorization, TMHP did not appropriately
research, analyze, evaluate, or ensure that all medical facts were considered and documented
before determining medical necessity. This deficiency occurred because the State agency did not
ensure that TMHP properly reviewed the medical necessity of each request for prior
authorization.

THE STATE AGENCY DID NOT ENSURE THAT THE TEXAS MEDICAID
& HEALTHCARE PARTNERSHIP DENTAL DIRECTOR FOLLOWED STATE
MEDICAID POLICIES AND PROCEDURES WHEN DETERMINING MEDICAL
NECESSITY

The State agency’s contract with TMHP requires that TMHP have a sufficient number of
knowledgeable and professional medical personnel to process requests for prior authorization in
accordance with State Medicaid policies and procedures. The contract also states that every
request for prior authorization must be reviewed to determine medical necessity.

The TMHP dental director did not follow State Medicaid policies and procedures when
determining the medical necessity of orthodontic services and reviewing prior-authorization
requests. When we asked the dental director what Medicaid criteria he used to approve prior-
authorization requests, he responded that he did not use Medicaid criteria, but rather his
professional judgment. Dentists, in using their professional judgment, may treat a moderate
malocclusion; however, Medicaid allows reimbursement only for severe handicapping
malocclusions. The dental director made final determinations of medical necessity on only about
10 to 20 percent of orthodontic prior authorizations, and he did so without using Medicaid
criteria. This deficiency occurred because the State agency did not ensure that the TMHP dental
director followed Medicaid policies and procedures.




5
    Medicaid Manual, Children’s Service Handbook, Volume 2, § 4.2.24.1 (2011).
6
 Performance Audit Report Texas Medicaid & Healthcare Partnership Prior Authorization Audit, OIG Report
No. 08-70-52903191-MA-03, published August 29, 2008, and Performance Audit Report Texas Medicaid
& Healthcare Partnership Prior Authorization Follow-up, OIG Report No. 11-70-05290801-MA-03, published
August 1, 2012.


Prior Authorization of Medicaid Orthodontic Services in Texas (A-06-12-00039)                             4
EFFECT OF THESE DEFICIENCIES

As a result of these deficiencies, TMHP may have approved requests for orthodontic services
that were not medically necessary.

RECOMMENDATIONS

We recommend that the State agency provide proper oversight of the orthodontic prior-
authorization process to ensure that:

    •   it is used to determine medical necessity and

    •   personnel making the prior-authorization decisions follow the appropriate State Medicaid
        policies and procedures.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially agreed with our findings. The
State agency agreed that the prior-authorization process was not used to determine the medical
necessity of orthodontic services and that TMHP’s dental director was not using Medicaid
guidelines to determine medical necessity. However, the State agency disagreed that TMHP’s
deficiencies were due to a lack of State agency oversight. State agency officials said that they
reasonably relied on TMHP’s assurances that it was complying with the State agency’s policies.
The officials said that TMHP violated its contractual obligations and therefore “opened the door
to potential fraud by unscrupulous orthodontic providers who could exploit” TMHP’s “lax prior-
authorization process ....”

The State agency provided information on actions that it had taken to address our
recommendations. On March 1, 2012, the State agency transitioned the vast majority of
Medicaid recipients to managed care, thereby limiting TMHP’s medical necessity reviews to a
small population.

Additionally, the State agency notified TMHP of the termination of its contract for cause and is
in the process of finalizing an agreement with another contractor until the contract can be
competitively bid. In addition to the State agency’s termination of the contract, the Texas
Attorney General’s Office filed a lawsuit against TMHP pursuant to the Texas Medicaid Fraud
Prevention Act.

Finally, the State agency hired its own dental director to monitor the effectiveness of its dental
and orthodontia programs.




Prior Authorization of Medicaid Orthodontic Services in Texas (A-06-12-00039)                        5
The State agency’s comments are included as Appendix B. 7

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that TMHP’s deficiencies were due to a lack of State agency oversight because the
State agency is responsible for contractor compliance.

                                               OTHER MATTERS

THE STATE AGENCY DID NOT ENSURE THAT TEXAS MEDICAID
& HEALTHCARE PARTNERSHIP’S ANALYSTS WERE MEDICALLY
KNOWLEDGEABLE

The State agency’s contract with TMHP requires that TMHP have a sufficient number of
medically knowledgeable analysts to process requests for prior authorization.

According to TMHP officials, the analysts that TMHP hired to process prior-authorization
requests for orthodontic services were not medically knowledgeable. This deficiency occurred
because the contract did not define “medically knowledgeable.”

STATE AGENCY COMMENTS

The State agency agreed that TMHP’s analysts were not medically knowledgeable but disagreed
that it was because the term “medically knowledgeable” was not defined in the contract. State
agency officials said that TMHP’s proposal included a “plan to employ qualified clinical
personnel, such as ‘registered dental assistants and dental technicians’ who would use their
‘medical expertise’ to review prior-authorization requests for orthodontic services.” The contract
included similar language. Additionally, the officials said that “the lack of a contractual
definition does not excuse mismanagement” by TMHP.

OFFICE OF INSPECTOR GENERAL RESPONSE

We agree with the State agency’s assertion that TMHP’s proposal and the contract required
qualified clinical personnel to review requests for prior authorization. However, the State
agency was responsible for providing oversight of its contract with TMHP. The State agency
provided no evidence that it had performed its due diligence, such as checking the analysts’
credentials, in ensuring that TMHP’s analysts were medically knowledgeable.




7
    The attachments that the State agency submitted with its comments are not included.


Prior Authorization of Medicaid Orthodontic Services in Texas (A-06-12-00039)                   6
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We focused our review on determining whether the State agency ensured that the prior-
authorization process was used to determine medical necessity under Medicaid guidelines. We
limited our review to TMHP’s process for reviewing Medicaid provider requests for prior
authorizations to perform orthodontic services. An additional report, which will include results
from a medical review of a statistically valid sample of prior-authorization requests, is
forthcoming.

We performed our fieldwork at the State agency and TMHP offices in Austin, Texas.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed State laws, regulations, and guidance pertaining to Texas Medicaid orthodontic
        services;

    •   reviewed the State agency’s contract with TMHP for administration of claim processing
        for Texas’ Medicaid program;

    •   interviewed the State dental director, TMHP’s dental director and prior-authorization
        director, and other State agency and TMHP officials;

    •   reviewed the two reports on audits performed by the State agency’s Office of Inspector
        General that are noted in footnote 6 on page 4; and

    •   reviewed TMHP’s internal document describing the step-by-step procedures for
        processing prior authorizations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Prior Authorization of Medicaid Orthodontic Services in Texas (A-06-12-00039)                      7
                          APPENDIX B: STATE AGENCY COMMENTS




                            TEXAS HEALTH AND HUMAN SERVICES COMMISSION



                                                                                                           KYLE L. JANEK, M.D.
                                                                                                          EXECIITIVE COMMISSIONER




                                                           May 30,2014



            Ms. Patricia Wheeler
            Regional Inspector General for Audit Services
            Office of Inspector General, Office of Audit Services
            1100 Commerce, Room 632
            Dallas, Texas 75242

            Reference Report Number A-06-12-00039

            Dear Ms. Wheeler:

            The Texas Health and Human Services Commission (HHSC) received a draft audit report
            entitled "Texas Did Not Ensure That the Prior-Authorization Process Was Used To Determine
            the Medical Necessity of Orthodontic Services" from the Department of Health and Human
            Services Office oflnspector General. The cover letter, dated February 5, 2014, requested that
            HHSC provide written comments, including the status ofactions taken or planned in response to
            report recommendations.

            I appreciate the opportunity to respond. Please find the attached HHSC management response
            which (a) includes comments related to the content ofthe findings and recommendations, and (b)
            details actions HHSC has completed or planned.

            If you have any questions or require additional information, please contact David M. Griffith,
            Director of HHS Risk and Compliance Management. Mr. Griffith may be reached by telephone
            at (512) 424-6998 or by e-mail at David.Griffith@hhsc.state.tx.us.

            Sincerely,


             0 --;;;fJ-A
            Kyle L. Janek, M.D.




             P. 0. Box 13247 •   Austin, Texas 78711   •    4900 North Lamar, Austin, Texas   78751   •    (512) 424-6500




Prior Authorization ofMedicaid Orthodontic Services in Texas (A -06-12-00039)                                                       8
            HHSC Management Response - Prior-Authorization Process for Orthodontic Services
            May 30,2014
            Page 1


                                                      SUMMARY

            HHSC relied to its detriment on its third-party administrator, Xerox d/b/a Texas Medicaid &
            Healthcare Partnership (TMHP), to manage the Medicaid orthodontia prior authorization
            program (the Program) effectively and in compliance with HHSC's policy for orthodontia
            services. Xerox's mismanagement of the program resulted in the overpayment of orthodontia
            claims worth millions of dollars. When HHSC questioned Xerox's administration of the Program
            as part of its monitoring process, Xerox made repeated written and oral assurances that it was
            complying with HHSC's approved policies and procedures to determine medical necessity.
            HHSC trusted Xerox's representations regarding its management of the Program.

            At HHSC's insistence, Xerox changed its review process in October 2011 to comply with
            longstanding policies and procedures approved by HHSC regarding the prior authorization of
            orthodontia services. HHSC's approved policies and procedures require that the Dental Director
            review all prior authorization requests for medical necessity. See Attachment 1, e.g. 2005 Policies
            and Procedures for Dental Authorization Department. Additionally, to ensure quality of services
            and to effectively monitor the Medicaid program for overutilization and fraud, HHSC moved
            almost all dental and orthodontic services for Medicaid recipients to managed care. As a result
            of the move to managed care, HHSC limited Xerox's medical necessity reviews for orthodontic
            services to a small population including: (1) recipients under age 21 with emergent conditions
            who have not yet transitioned to a Dental Managed Care Organization (DMO), (2) recipients who
            aged out ofthe program at age 21 or lost Medicaid eligibility and needed to complete orthodontic
            treatment, and (3) recipients who are residents of Medicaid paid facilities such as nursing homes,
            state-supported living centers and intermediate care facilities for persons with intellectual and
            developmental disabilities.

            As a result of Xerox's failure to properly manage the Program, HHSC notified Xerox of
            termination for cause of the Medicaid Claims/Primary Care Case Management Administrative
            Services Agreement (the Contract) 1 on May 9, 2014. HHSC is currently in the process of
            finalizing an agreement with Accenture LLP, the subcontractor responsible for the maintenance
            and operation of the Medicaid Management Information System (MMIS), to be HHSC's prime
            contractor until HHSC can competitively rebid the Contract.

            In addition to the termination of the Contract, the Texas Attorney General has filed a lawsuit
            against Xerox pursuant to the Texas Medicaid Fraud Prevention Act (TMFPA), Chapter 36 ofthe
            Texas Human Resources Code. 2 The lawsuit seeks to recover fraudulent Medicaid payments for
            orthodontic and dental services that were improperly approved by Xerox.

            1
               "The Contract" unless otherwise specified refers to both Medicaid Claims/Primary Care Case 

            Management Administrative Services Agreements between HHSC and Xerox which were effective on 

            January I, 2004 and on August 31, 20 I 0, respectively. 

            2
              State v. Xerox Corp., No. D-1-6V-14-00058l, 2014 . 





Prior Authorization ofMedicaid Orthodontic Services in Texas (A-06-12-00039)                                      9
            HHSC Management Response - Prior-Authorization Process for Orthodontic Services
            May 30,2014
            Page2


                                                            FINDINGS

                                                                  I.

            DHHS - O I G F ind in g: The State agency did not ensure that the prior authorization
            process was used to determine medical necessity oforthodontic services.

            HHSC Clarification: HHSC agrees with the Department of Health and Human Services
            (DHHS) Office of Inspector General's (OIG) finding that Xerox failed to use the prior
            authorization process to determine the medical necessity of orthodontic services. However,
            HHSC does not agree that Xerox's failure was from a lack of agency oversight. HHSC
            reasonably relied upon Xerox's assurances regarding its compliance with HHSC policies. When
            confronted by HHSC regarding allegations of mismanagement, Xerox convincingly
            misrepresented its process for making medical necessity determinations.

            During the procurements of the Contract, Xerox held itself out to HHSC as an expert, both in
            determining medical necessity and in managing an orthodontia prior authorization program. 3
            Additionally, Xerox promised HHSC that it could seamlessly continue the services provided by
            the prior claims administrator, Electronic Data System d/b/a National Heritage Insurance
            Company (NHIC), including NHIC's process of using a licensed dentist to make medical
            necessity determinations for orthodontia services. HHSC reasonably relied to its detriment on
            Xerox's adamant assurances that Xerox was fulfilling its contractual obligations to ensure that all
            prior authorization requests were being reviewed by qualified clinical personnel and that all
            approved requests for orthodontic services were, in fact, medically necessary.

            Prior authorization programs ensure that only medically necessary services are approved by
            using a process to safeguard against fraud, waste and abuse. Xerox contractually promised that it
            would protect HHSC from fraud and abuse by diligently applying HHSC's policy requiring a
            genuine medical necessity review by qualified clinical staff with final approval by Xerox's
            Dental Director.4 HHSC included these protections in the Contract as a vendor responsibility so
            that HHSC could devote state resources to program and policy oversight without having to
            scrutinize individual orthodontia claims. Because HHSC had contracted and was paying for
            Xerox to administer the Program, it was unrealistic for HHSC to duplicate efforts and employ
            staff to monitor individual prior authorization requests. See 2008 RFP § 8.9-Prior Authorization
            Contract Requirements (PACs) 1, 4, 5, 6, 12, 15, 16, 18, 20. 23, 26, 30and 37.



            3
                See 2004 Contract §2.02 and 2010 Contract §2.03. 

            4
                "Dental Director" refers to the licensed dentist employed by Xerox to conduct medical necessity 

            reviews. 





Prior Authorization of Medicaid Orthodontic Serv ices in Texas (A-06-12-00039)                                      10
            HHSC Management Response - Prior-Authori zation Process for Orthodontic Services
            May 30,2014
            Page3


            Xerox made a unilateral decision to change a well-established prior authorization process
            without approval from HHSC and without seeking a change in, or any clarification of, its
            contractual obligation to provide genuine medical necessity reviews by properly-trained,
            medically knowledgeable clinicians. Policy and Procedures submitted to HHSC for approval
            indicated to HHSC that every request for prior authorization oforthodontic treatment was sent to
            the Xerox Dental Director for review. Additionally, Xerox's written internal work instructions
            (WlKis), posted electronically for HHSC to review, indicated that all prior authorization
            requests, including photographs and X-rays, were reviewed by the Xerox Dental Director. See
            Attachment 2, Dental Authorization WJKJ dated May 18, 2011. It was only when HHSC gave
            Xerox a deficiency notice for mismanagement of the Program on May 18, 20 ll (Deficiency
            Notice) that Xerox changed its Program WIKI to reflect Xerox's actual process. The amended
            WIKl instructed staff, with no clinical qualifications, to approve requests for eligible Medicaid
            recipients if the Handicapping Labia-Lingual Deviation (HLD) Index score sheets indicated 26
            points or more. See Texas Health Steps (FHSteps) Medicaid Medical Policy Manual,
            Orthodontic Dental Services 4.2.24. See PAC-4, Establish and follow State-approved policies
            and procedures for analyzing and researching PA determinations.

            By failing to follow the approved policies and procedures, Xerox not only violated its contractual
            obligations, but opened the door to potential fra ud by unscrupulous orthodontic providers who
            could exploit Xerox's lax prior authorization process by receiving Medicaid reimbursement for
            orthodontic services that the providers knew, or should have known, were not medically
            necessary.

            HHSC does not agree with the TMHP's dental directo~ that the change in policy regarding the
            submission and review of dental molds6 was the reason for the increase in prior authorization
            requests. During an August 2004 Benefits Management Workgroup (BMW) meeting., Xerox's
            Dental Director requested a policy change to discontinue the requirement for the submission of
            molds. The BMW approved the request, which subsequently received HHSC's approval in 2005.
            The Xerox Dental Director's simultaneous request for a policy change to eliminate the
            requirement for supporting diagnostics, including X-rays, was denied. Contrary to the
            information provided by Xerox, HHSC was not aware of, nor did it approve, any change in
            policy to discontinue the submission of X-rays and photographs necessary to a valid prior
            authorization decision. Further, HHSC expected Xerox to use X-rays and photographs to
            determine medical necessity because their submission was a policy requirement. 7 See
            Attachment 3, Xerox 's Proposal to RFP, Business Operations Plan 8.9.


            5
              TMHP's dental director refers to the Program administrator.
            6
              Refers to plaster cast models.
            7
              "We understand that HHSC must review and approve any changes, including the addition or deletion of
            services that require prior authorization and the criteria used to evaluate their medical necessity and cost
            effectiveness." Planning and Criteria Development §8.9-9.




Prior Authorization of Medicaid Orthodontic Services in Texas (A-06-12-00039)                                              11
            HHSC Management Response - Prior-Authorization Process for Orthodontic Services
            May 30, 2014
            Page4


            Although HHSC required providers to submit X-rays and photographs in order to show the
            medical need for the requested services, Xerox, pursuant to its arbitrary and unreasonable
            interpretation of the contract, implemented a system that omitted a review of any diagnostic
            tools. Xerox employees simply examined their paperwork for a bar code indicating that the
            submitted request included the required diagnostics, but they never took the diagnostics out of
            the packaging for examination unless the HLD Index score was less than 26 points. Regardless
            of whether the HLD scores met the initial 26 points threshold, Xerox's Dental Director routinely
            approved requests without examining any of the required diagnostic tools to determine if a
            service was actually medically necessary. Most importantly, HHSC was not aware (and because
            of Xerox's misrepresentations, could not become aware) that Xerox had urulaterally interpreted
            HHSC's Medicaid policy to mean that Xerox could verify medical necessity by simply seeing a
            26 or more point value on the HLD score sheet.

                                                           n.
            DHHS - OIG Finding: HHSC did not ensure that Xerox's Dental Director followed State
            Medicaid policies and procedures when determining the medical necessity of orthodontic
            services.

            HHSC Clarification: HHSC agrees Xerox ' s Dental Director did not follow State Medicaid
            policies and procedures when determining the medical necessity of orthodontic services.
            However, HHSC does not agree that the failure of the Dental Director to follow policy was due
            to a lack ofagency oversight.

            Throughout the term of its contract with HHSC, the prior vendor, NHIC, employed a licensed
            dentist to perform medical necessity reviews of orthodontia prior authorization requests for
            services. During the transition of the contract from NHIC to Xerox, NHIC provided Xerox with
            details of its review process, and Xerox worked closely with NHIC to ensure the smooth
            transition of all business operations as well as acquire a clear understanding of all policies and
            processes. See Attachment 4, Medical Affairs 12-03-03 Delivery of Inventory Sign-Off Form­
            NHJC Department Manuals for Dental Authorizations and Attachment 5, Texas Medicaid &
            Healthcare Partnership Prior Authorization Work Group, June 16, 2003 Meeting Minutes.

            Further, the Xerox Dental Director had a first-hand opporturuty to observe NHIC's process for
            dental and orthodontia medical necessity reviews, and he was well aware of HHSC' s approved
            methodology, including the requirement for an examination of the dental records and of all the
            required diagnostic tools and photographs. Even though Xerox had a duty to ensure its
            employees complied with HHSC's Orthodontia Program policy, Xerox failed to meet its
            obligation because it directed, condoned and profited from the Dental Director's mismanagement
            of the Program. Xerox's misconduct permitted providers to submit prior authorizations requests
            they knew would be approved even though the services were not medically necessary.
            Subsequent to Xerox's implementation of its unapproved process for prior authorization, and in




Prior Authorization ofMedicaid Orthodontic Services in Texas (A-06-12-00039)                                     12
            HHSC Management Response - Prior-Authorization Process for Orthodontic Services
            May 30,2014
            PageS


            response to the 2008 HHSC OIG audit of the Program, HHSC sent a written inquiry on May 15,
            2009 to Xerox regarding its management of the Program. In its response to HHSC, Xerox
            vigorously claimed that its administration of the Program was based on HHSC's medical policy
            guidelines and on the dental policy and procedures approved by HHSC. Xerox claimed that the
            Dental Director reviewed requests for services that did not meet medical policy criteria. HHSC
            relied on Xerox's convincing oral and written assurances that it was administering the Program in
            compliance with HHSC's policies. It was only later through an exhaustive investigation in
            conjunction with the Texas Office of the Attorney General that HHSC was able to determine that
            Xerox's mismanagement of the Program resulted in substantial fraud by dishonest providers. See
            Attachment 6, Memorandum to Billy Millwee from Rick Pope, dated May 13, 2009.

                                                           III.

            DHHS- OIG Other Matters: HHSC did not ensure that Xerox's prior authorization analysts
            were medically knowledgeable.

            HHSC Clarification: HHSC reasonably relied on Xerox's assurances that it was meeting its
            contractual obligations to use only qualified, medically knowledgeable personnel to review prior
            authorization requests.

            By making specific pledges in its Proposal to the Request for Proposal (RFP), Xerox
            contractually promised HHSC to have a sufficient number of medically knowledgeable analysts
            to process prior authorization requests. The Contract obligated Xerox to employ " ...qualified
            clinical personnel" who were to " ... use their medical expertise and HHSC-approved criteria to
            evaluate the medical necessity and cost-effectiveness of requested services." The Contract also
            obligated Xerox to use"... registered nurses, licensed vocational nurses, licensed clinical social
            workers, registered dental assistants, and dental technicians to provide timely and accurate
            review ofPA requests in accordance with the RFP's performance requirements." Moreover, the
            clinical staff was to have access " ... to staff physicians and medical consultants as needed to
            resolve questionable requests." See Attachment 3, Xerox's Proposal to RFP, Business
            Operations Plan§ 8.9.5. As a result of Xerox's responses to HHSC's inquiries regarding the
            competency of the Program's staff, HHSC believed Xerox's claim that Xerox's employees were
            qualified and appropriately trained to conduct medical necessity reviews in a manner that met the
            Contract's requirements including high professional standards.

            HHSC disagrees with Xerox's assertion that its failure to employ qualified medical personnel
            was because the Contract did not define the term "medically knowledgeable." See PAC 37,
            Provide and maintain a sufficient number ofknowledgeable and professional medical personnel
            to perform the PA function, in accordance with State-approved processes and procedures.
            Xerox's own proposal to HHSC includes its plan to employ qualified clinical personnel, such as
            "registered dental assistants and dental technicians" who would use their "medical expertise," to
            review prior authorization requests for orthodontic services. Further, the Contract required




Prior Authorization ofMedicaid Orthodontic Services in Texas (A-06-12-00039)                                     13
            HHSC Management Response - Prior-Authorization Process for Orthodontic Services
            May 30,2014
            Page6


            clinical personnel have access to staff physicians and medical consultants for an additional
            review if needed. Given the essential purpose of the Program and the terms of the contract
            requiring clinical staffing, the term "medically knowledgeable" should be given its ordinary
            meaning. The lack of a contractual definition does not excuse mismanagement by Xerox. See
            Attachment 3.

            Contrary to its contractual requirement, Xerox used clerical staff- which Xerox represented as
            "Dental Specialists" - to review prior authorization requests in place of registered dental
            assistants or dental technicians. The Contract expressly limits clerical staff to non-clinical tasks
            such as verifying the Medicaid eligibility of recipients and ensuring that the dental service
            providers were eligible to receive Medicaid reimbursement for properly approved services. See
            Attachment 3.

            When confronted by HHSC regarding the qualifications of its Program staff, Xerox asserted that
            it was using appropriately trained staff and that requests for services that did not meet medical
            policy criteria were sent to the Dental Director for review. HHSC relied on Xerox's oral and
            written assurances that the Program was administered in compliance with HHSC's policies. See
            Attachments 1, 3 and 6.

            Although virtually all Medicaid recipients that qualify for orthodontia services are now enrolled
            in managed care, HHSC's stringent requirements for medical necessity still apply to the
            recipients who remain in the fee-for-service Medicaid program, and the fee-for-service providers
            must still submit prior authorization requests for orthodontia services to Xerox for approval. As
            a result of the contractual Notice of Deficiency that HHSC sent to Xerox, all prior authorization
            requests must be reviewed by qualified dentists to determine medical necessity. In addition,
            qualified dentists must review all diagnostic tools including dental molds when assessing the
            requests. The medical necessity determinations are further subject to retrospective reviews by
            HHSC's Dental Director. As previously noted, HHSC terminated the Contract with Xerox for
            cause and is transitioning Xerox's contractual responsibilities to Accenture as the prime
            contractor until HHSC can competitively rebid the Contract. Accenture is scheduled to take over
            Xerox's business operations effective August I, 2014.

                                                RECOMMENDATIONS

            Detailed responses to each ofthe recommendations included in the report follow.

            DHHS - O I G Recommen dation:          We recommend that the State Agency provide proper
            oversight of the orthodontic prior authorization process to ensure 1hat it is used to determine
            medical necessity.

            HHSC Response: HHSC is providing proper oversight of the orthodontic prior authorization
            process to ensure that the process is properly used to determine if orthodontic services are




Prior Authorization of Medicaid Orthodontic Serv ices in Texas (A-06-12-00039)                                     14
            HHSC Management Response - Prior-Authorization Process for Orthodontic Services
            May 30,2014
            Page?


            medically necessary. HHSC's Notice of Deficiency resulted in a change in Xerox's management
            ofthe Program. As of October I, 2011, all prior authorization requests are reviewed by a
            qualified dentist.

            Additionally, on March I, 2012, HHSC transitioned the vast majority of its Medicaid recipients
            to a managed care system.8 Currently, Xerox only reviews prior authorization requests for a
            small population of recipients. As a result of the change, Xerox did not conduct any new
            orthodontic prior authorization approvals between February 1, 2013 and December 30, 2013.
            HHSC also hired its own Dental Director to perform retrospective reviews and monitor the
            effectiveness ofits dental and orthodontia programs.

            Actions Planned:        HHSC will continue to monitor the Program as contractual
                                    responsibilities are transitioned from Xerox to Accenture. HHSC also
                                    plans to complete retrospective reviews of the Program.

            Responsible Person: 	 Associate Commissioner for Medicaid and CHIP

            DHHS - OIG Recommendation: We recommend that the State Agency provide proper
            oversight of the orthodontic prior authorization process to ensure that personnel making the
            prior authorization decisions follow the appropriate State Medicaid policies andprocedures.

            HHSC Response: HHSC is providing proper oversight of the orthodontic prior authorization
            process to ensure that appropriate personnel are making medical necessity determinations for
            orthodontic services.

            Xerox is reviewing few prior authorization requests for orthodontia services because almost all
            Medicaid recipients eligible for orthodontia services are now in managed care. Additionally,
            Xerox has changed the management of its Program to comply with the Contract and HHSC's
            policy, and all prior authorization requests are now being reviewed by a qualified dentist.
            Further, HHSC hired its own Dental Director to monitor the Program.

            Actions Planned: 	      HHSC will continue to monitor the Program as contractual
                                    responsibilities are transitioned from Xerox to Accenture. HHSC also
                                    plans to complete retrospective reviews ofthe Program.

            Responsible Person: 	 Associate Commissioner for Medicaid and CHIP


            8
              Paid Medicaid Orthodontia Services cost $126,713,664 (state and federal funds) in SFY 2012. After the
            transition to managed care, the Paid Medicaid Orthodontia Services cost $43,742,651 (state and federal
            funds) in SFY 2013.




Prior Authorization ofMedicaid Orthodontic Services in Texas (A-06-12-00039)                                          15
            HHSC Management Response - Prior-Authorization Process for Orthodontic Services
            May 30,2014
            Page&


                                                 ATTACHMENTS

            1. 2005 Policies and Procedures for Dental Authorization Department

            2. Dental Authorization WIKI dated May 18,2011

            3. Xerox's 2002 Proposal to RFP, Business Operations Plan§ 8.9

            4. Medical Affairs 12-03-03 Delivery oflnventory Sign-Off Form-NHIC Department Manuals
               for Dental Authorizations received by Xerox on December 11, 2003

            5. Texas Medicaid &Healthcare Partnership Prior Authorization Work Group, June 16, 2003
               Meeting Minutes

            6. Memorandum to Billy Millwee from Rick Pope, dated May 13,2009




Prior Authorization ofMedicaid Orthodontic Services in Texas (A-06-12-00039)                          16
